No. __-____

In the Supreme Court of the United States
KEVIN LEE BOUTTE,
v.

Petitioner,

YVONNE RENEA BOUTTE,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF LOUISIANA
CERTIFICATE OF SERVICE
OF PETITION FOR A WRIT OF CERTIORARI
CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF SERVICE OF PETITION
FOR A WRIT OF CERTIORARI
Pursuant to Supreme Court Rules and further
Orders of the Court dated April 15, 2020 undersigned
sent on the below date by first class mail and/or by
email if electronic service was consented to a copy of
Petitioner’s Petition for Writ of Certiorari to the
Supreme Court of Michigan in the above-captioned
case to counsel as follows:
ATTORNEYS FOR RESPONDENT:
CHARLES G. BLAIZE (#25575)
FREDERIC C. FONDREN (#23733)
MAYHALL FONDREN BLAIZE
628 Wood Street
Houma, LA 70360
Tel. (985) 223-4725
Fax (985) 851-3069

Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: July 9, 2021

